                                   SOCIAL SECURITY
MEMORANDUM
Date:   September 26, 2003                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Controls over Supplemental Security Income Replacement Checks (A-05-03-13010)


        Attached is a copy of our final report. Our objectives were to determine whether the
        Social Security Administration has adequate procedures to control duplicate
        Supplemental Security Income checks issued to the same recipients and recover
        overpayments resulting from double check negotiations.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


            Controls Over
     Supplemental Security Income
         Replacement Checks

  September 2003     A-05-03-13010




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
Our objectives were to determine whether the Social Security Administration (SSA) has
adequate procedures to control duplicate Supplemental Security Income (SSI) checks
issued to the same recipient and recover overpayments resulting from double check
negotiations (DCN).

BACKGROUND
SSA has established procedures to replace monthly SSI checks that recipients claim
were not received. A Federal settlement agreement mandated that when a recipient
reports a check was not received, SSA will direct the Department of the Treasury
(Treasury) to immediately issue a replacement check prior to investigating the status of
the missing check. There are two situations when SSA may choose to investigate the
status of an original check prior to issuing a replacement check. First, if SSA believes
that an individual alleging nonreceipt is misusing SSA’s policy of immediate payment,
SSA will direct Treasury to determine the status of the original check before replacing it.
This action requires SSA to establish that the individual received a final denial on a
forgery claim or had a DCN within the last 24 months that was not appealed. Second,
SSA can request Treasury to determine the status of a check when the recipient is
unsure whether a benefit check was received.

RESULTS OF REVIEW
SSA recorded 226,615 DCNs totaling approximately $104.7 million during the audit
period. Our review concentrated on the 127,262 DCNs totaling $59.7 million recorded
during the 12-month period ended March 31, 2002. These totals include
8,375 individuals who negotiated from 3 to 12 DCNs during the year, resulting in
overpayments of $16.7 million. We visited six field offices that processed a large
number of DCNs including two with over 1,000 DCNs each during the period. We also
visited an office in Rochester, New York, that processed 649 DCNs and is part of an
ongoing project being conducted by our Office of Investigations to investigate and seek
prosecution of individuals who abused the replacement check process.

CONCLUSIONS AND RECOMMENDATIONS

SSA has revised its procedures to improve its controls over DCNs and recovery of
related overpayments. Nonetheless, the number of DCNs and the amount of related
overpayments have increased to a significant level in recent years. We are
recommending that SSA take additional actions to deter individuals from initiating
multiple DCNs and to recover related overpayments in a timely manner. As a result of
reducing the occurrence of DCNs and initiating prompt recovery action, we estimate
SSA could realize about $137.5 million in program savings over a 5-year period.


Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
AGENCY COMMENTS

SSA generally agreed with our recommendations. The Agency added that DCNs are a
concern and it strongly supports efforts to deter and prevent fraudulent requests for SSI
replacement checks. See Appendix F for SSA’s comments.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                                                          Table of Contents
                                                                                                              Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

Increased DCN Activity ...........................................................................................4

Vulnerabilities in the Nonreceipt System .................................................................5

    •    FO Employee Concerns ...............................................................................5

    •    The Problem of Multiple DCNs .....................................................................7

    •    The Use of Administrative Sanctions............................................................8

    •    FO Employees Recommend Direct Deposit .................................................9

    •    Analysis of DCN Recovery Rate...................................................................9

Office of Investigations DCN Project .......................................................................9

CONCLUSIONS AND RECOMMENDATIONS.....................................................11

APPENDICES

Appendix A – Statistical Analyses and Methodology

Appendix B – Frequency Table for Double Check Negotiations

Appendix C – Field Offices with the Highest Number of Double Check Negotiations

Appendix D – Overpayment Recoveries for Cases with 10 or More Double Check
             Negotiations at 6 Field Offices Visited

Appendix E – Questionnaire for Interviews Conducted at Selected SSA Field Offices

Appendix F – Agency Comments

Appendix G – OIG Contacts and Staff Acknowledgments




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                                                                Acronyms
CR                          Claims Representative

DCN                         Double Check Negotiations

EFT                         Electronic Funds Transfer

FO                          Field Office

IP                          Immediate Payment

OI                          Office of Investigations

POMS                        Program Operations Manual System

SSI                         Supplemental Security Income

SSA                         Social Security Administration

SSR                         Supplemental Security Record

TSC                         Teleservice Center

TSR                         Teleservice Representative

Treasury                    Department of the Treasury




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                                                                     Introduction
OBJECTIVE
Our objectives were to determine whether the Social Security Administration (SSA) has
adequate procedures to control duplicate Supplemental Security Income (SSI) checks
issued to the same recipient and recover overpayments resulting from double check
negotiations (DCN).

BACKGROUND
The SSI program is a needs-based program administered by SSA. The program
provides cash assistance to financially needy individuals who are aged, blind and/or
disabled.1 SSA estimated total SSI payments of $31.9 billion were made to an
estimated 6.8 million recipients during Calendar Year 2002.

Prior to November 1997, SSA did not provide immediate SSI replacement checks when
recipients claimed they did not receive the checks. If a missing check was reported for
a current monthly benefit check, SSA reviewed its records to determine if the recipient
cashed two checks for the same month’s payment during the previous 24 months. If a
double check negotiation (DCN) was detected, SSA requested that the Department of
the Treasury (Treasury) determine the status of the original check before issuing a
replacement check.

This procedure was challenged through a class action suit filed in the State of New
York.2 The plaintiffs filed suit to challenge the procedures used to replace Title II and
Title XVI checks for which nonreceipt allegations were filed. As a result, SSA entered
into a settlement agreement and, effective November 1997, SSA generally issues an
immediate replacement for missing checks. The two exceptions to this general rule are
as follows.

First, if SSA has reason to believe that an individual alleging nonreceipt is misusing
SSA’s policy of immediate replacement, SSA can request Treasury to determine the
status of the original check prior to issuing a replacement payment. To do this, SSA
records must establish that the individual received a final denial on a forgery claim or
had a DCN that was not appealed within the last 24 months. If SSA invokes this option
and the original check has not been presented for payment, Treasury will cancel the
original check and issue a replacement check. If the original check has been cashed
and the check payee denies cashing it, a forgery investigation must be completed
before a settlement check will be paid. Second, if an individual is unsure whether a

1
    20 C.F.R. § 416.110.
2
    Robinson vs. Sullivan, U.S. Dist. Lexis 14127 (S.D.N.Y.) 1994.


Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)              1
benefit check was received, SSA will direct Treasury to determine the status of the
original check before issuing a replacement.3

We coordinated our review with the Office of the Inspector General, Office of
Investigations (OI), which has projects in place to process and prosecute individuals
with multiple DCNs. We also reviewed a memorandum from the SSA Dallas Region
that addressed DCN abuses at two field offices (FO). The memorandum, dated
June 28, 2002, was addressed to SSA’s Deputy Commissioner for Operations. Its
primary purpose was to recommend actions to decrease the occurrence of fraudulent
DCNs under the SSI program.

SCOPE AND METHODOLOGY
To complete our review we:

•     Interviewed SSA employees at Region V offices concerning replacement check
      procedures and related problems.

•     Reviewed fact sheets issued by OI that involved DCN fraud.

•     Performed a nationwide data extract of DCNs from the SSI recipient master file, the
      Supplemental Security Record (SSR), for the 2-year period ended March 31, 2002.

•     Followed up on the status of recommendations to reduce DCNs made in a
      memorandum from the Dallas Regional Office.

•     Visited 6 of the 20 FOs nationwide with the largest number of DCNs to review their
      procedures to control and recover DCNs. The offices were located in Milwaukee,
      Wisconsin; Los Angeles, California; Rochester, New York; St. Louis, Missouri;
      Memphis, Tennessee; and Detroit, Michigan.

•     Contacted the administrative sanctions coordinators at every region to assess the
      use of sanctions for individuals who have multiple DCNs.

•     Selected all recipients from the 6 FOs that we visited who had 10 or more DCNs
      from April 1, 2001 to March 31, 2002, to determine what actions were taken.

•     Reviewed the OI pilot investigation of DCNs in the State of New York.

•     Reviewed applicable Federal regulations and SSA policies and procedures.

We developed a population of DCNs by extracting records from the SSI master file, the
SSR. Selected records were reviewed in detail to validate the accuracy of the extract.
In addition, we validated other records by using selected cases as a basis for detailed

3
    Program Operations Manual System (POMS), section GN 02406.002(B).7.


Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)               2
record reviews during our on-site visits to six FOs. Our statistical methodology can be
found at Appendix A.

We performed field work from September 2002 through March 2003 at our office in
Chicago, Illinois; local FOs in the Chicago area; the six FOs identified previously; and
SSA Headquarters in Baltimore, Maryland. The entities audited were SSA’s FOs under
the Deputy Commissioner for Operations. We conducted our audit in accordance with
generally accepted government auditing standards.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)             3
                                          Results of Review
SSA recorded 226,615 DCNs totaling about $104.7 million during the 2-year audit
period ended March 31, 2002. During the most recent year there were 8,375 individuals
who negotiated from 3 to 12 DCNs during the same year, resulting in overpayments of
$16.7 million. This category includes 1,271 individuals who negotiated 6 or more SSI
replacement and initial checks, resulting in average overpayments of about $3,500. Our
frequency analysis for the year ended March 31, 2002 is shown as Appendix B.

SSA staff expressed the opinion that the Robinson-Reyf settlement agreement to
immediately replace checks reported as missing partially explains the significant
increase in the number of DCNs under the SSI program. Our discussions with both
SSA regional and FO staff identified weaknesses in monitoring DCNs and recovering
related overpayments, as well as a lack of penalties to deter DCN abuses. We
commend SSA for initiating procedural changes that should reduce both of these
weaknesses in the future. Nonetheless, we recommend additional actions be taken to
further improve controls over replacement checks and overpayment recoveries from
DCNs. Further, SSA needs to increase the use of administrative sanctions as a penalty
against those who abuse the replacement check process by incurring multiple DCNs.

INCREASED DCN ACTIVITY
Our data extract for the 2-year period ended March 2002 consists of records from the
SSR where both the original and replacement checks were cashed for the same month.
The payee may not always be at fault and can exercise an appeals right if it is alleged
that another person cashed one of the checks. The number of DCNs for the 1-year
period ended March 31, 2002 disclosed an increase of 28 percent above the previous
year and the related overpayment dollar amount was 33 percent above the previous
year as shown in the table below.

               DOUBLE CHECK NEGOTIATIONS FREQUENCY TABLE

              Year                    Number of DCNs                 Total Amount
April 1, 2000 to March 31, 2001           99,353                     $ 45,032,402
April 1, 2001 to March 31, 2002          127,262                       59,703,356
Totals                                   226,615                     $104,735,758
Percentage Increases                       28                              33




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)         4
The increases in the number of DCNs have been dramatic at some FOs. For example,
OI provided the following information on DCN increases at the Syracuse FO in
New York after the Robinson-Reyf court action.

                   Year                                   Number of DCNs
1996 (prior to Robinson-Reyf settlement)       36
2000                                          502
2001                                          733
2002 (at August 31)                           723 (projected to 1,084 at year’s end)

Another example was provided by the Dallas regional office. The Regional
Commissioner, in a memorandum to Headquarters, cited the number of DCNs and
related overpayments at two FOs in Oklahoma City, Oklahoma, and Tyler, Texas, for
the 4-year periods immediately before and after the Robinson-Reyf settlement. The
Region reported that total DCNs and overpayments went from 980 to 1,475 and from
$366,653 to $628,199, respectively. While not as dramatic as the increases in
Syracuse, the data indicates significant average increases in DCNs issued and related
overpayments of 50.5 percent and 71.3 percent, respectively. OI has initiated
investigations related to some of these cases.

VULNERABILITIES IN THE NONRECEIPT SYSTEM
Our review of SSA instructions in the Program Operations Manual System (POMS) for
SSI replacement checks and discussions with FO and regional staff disclosed the need
for improvements in the process.

FO EMPLOYEE CONCERNS

We visited 6 FOs from the list of 20 FOs with the highest volume of DCNs nationwide
(see Appendix C). The FOs were selected from different regions to provide nationwide
representation. Below we have summarized opinions held by all or most of the staff we
interviewed relevant to our audit objectives.

Generally, the FO staff did not believe that current procedures are adequate to reduce
overpayments related to DCNs. They believed there are two significant factors in the
nonreceipt process that allow or encourage recipients to consistently receive two SSI
payments for the same month. The first factor was a lack of consistent POMS
instructions between FOs and teleservice centers (TSC) for processing nonreceipts.
The comments are summarized below.

•   At the time of the interviews, SSA’s procedures for teleservice representatives (TSR)
    were not consistent with those for FO staff. TSRs were not required to initiate a
    request for Treasury action for recipients who have a history of DCNs. The input of
    a “C-stop” directs Treasury to investigate a missing check before issuing a
    replacement check.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)            5
•     Procedures only required TSRs to process the “C-stop” when a caller was “unsure”
      as to whether a check was received. Situations where abuse was suspected were
      to be referred to the FO or program service center for processing.

We noted that SSA responded to this concern. The Agency recently issued an
Emergency Message (EM-03028, effective March 24, 2003) to emphasize the
importance of annotating the SSR when DCN abuse occurred on recipients’ records.
The message directs TSRs to input “C-stop” actions when DCNs were committed during
the prior 24-month period. However, some of the FO staff we interviewed believed
TSRs were not reviewing the records to identify payees as DCN abusers. They stated
that overpayments could be avoided if the TSRs were reviewing the records to identify
prior DCNs. Instead, they claimed some TSRs input a “B-stop” when the record is
annotated that a “C-stop” should be inputted into the system. The “B-stop” directs
Treasury to issue a replacement check immediately prior to an investigation of the
original check.

The second significant factor identified during the FO interviews concerned DCN
recovery procedures. Under the law, SSI overpayment recoveries generally are limited
to the lesser of a recipient’s SSI benefit or 10 percent of monthly income. An exception
is the law allows SSA to withhold an entire SSI payment if fraud, willful
misrepresentation, or concealment of material information was involved in connection
with the overpayment.4 However, we determined SSA was not applying this exception
to the 10 percent ceiling on SSI payments to recover overpayments related to DCNs.
Thus, individuals who incurred multiple DCNs increased their cumulative amount of
overpayments.

This year SSA improved its procedures by specifying that individuals who incur DCNs
are liable for a withhold of the entire SSI payment to recover related overpayments.5
This policy, effective May 2003, is based on the legal criteria for exceptions to the
10 percent withhold ceiling, namely “…that similar fault, misrepresentation or
concealment of material information was committed by the SSI individual or his/her
deemor….” This instruction identifies DCNs as an example of a type of case subject to
100 percent withholding and describes how it should be implemented.6

An additional concern was expressed by the manager at one of the FOs we visited.
She stated that the POMS notes that a “U” in the “Pay Flag 3 column” of the SSI record
means that both original and replacement checks have been cashed. The manager
then referred to the case we provided. For this particular record, the recipient was able
to double negotiate 12 checks during the 1-year period ended March 31, 2002. The
manager noted that not all DCNs were identifiable by a “U.” Instead, the record field
was blank. The manager stated an employee could interpret the blanks in this field
4
    Section 1631(b)(1)(B) of the Social Security Act, as amended (42 U.S.C. 1383(b)(1)(B)).
5
    POMS, section SI 02220.016.
6
    20 C.F.R. § 416.571.



Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)                 6
represented regular payments. She believes all DCNs should be annotated consistently
on the record.

THE PROBLEM OF MULTIPLE DCNS

We visited the six FOs identified previously with high volumes of DCNs. We discussed
the problems of multiple DCNs by selecting one SSI payee serviced by each FO who
had at least nine DCNs during the 1-year period ended March 31, 2002. We asked FO
employees the following key questions:

•    Why is your office one of those with the largest number of DCNs issued in the
     nation?

•    How would you respond if the person whose name appears on the record we
     provided with multiple DCNs were to come to the office for another replacement
     check?

•    What will be done to stop the recipient from continuing to receive replacement
     checks?

The FO employees generally responded as follows:

1.      They believed the number of DCNs were related to demographics of the
        population served. The high-volume offices tend to be located in low-income
        communities. As a result, recipients often are presumed to be in dire financial
        need. Another opinion was that some recipients expect DCNs as a regular
        income source and know how to manipulate the system in their favor.

        Some employees stated that recipients are aware that they can receive a
        replacement check by calling the SSA 800-number. One allegation was that if
        the TSR states an investigation of the original check will be done before issuing a
        replacement check, the recipient will call another TSR until one agrees to issue
        an immediate payment check. Also, staff stated that recipients are aware that
        the only SSA response to DCNs was to record overpayments.

        Another employee response was that payees have also learned to hold their
        original check until a replacement check is received. When Treasury releases a
        replacement check, the individuals will cash both checks at the same time at
        different currency exchanges.

2.      FO employees stated if a recipient with multiple DCNs came into the office
        for another replacement check, a “C-stop” would be entered onto the record with
        remarks to alert other staff to use future “C-stops.” However, it was stated that
        the recipient might ask for a manager to request an immediate payment based
        on “dire need.” When this happens, either a supervisor or office manager talks
        with the person to determine if the payment should be issued. Regardless of the


Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)             7
         immediate payment, a “C-stop” will be recorded and a replacement check can
         still be issued.

3.       FO employees stated the only required action under POMS to stop DCNs was to
         record “C-stops” for Treasury action.

THE USE OF ADMINISTRATIVE SANCTIONS

SSA procedures provide for administrative sanctions as a penalty against individuals
who abuse the program. FOs submit proposed sanction actions to the regional
coordinator for approval. The criteria for administrative sanctions is as follows:

         “SSA will impose a penalty when an individual makes (or causes to be made) a
         statement or representation of a material fact for use in determining title II/title
         XVI benefit eligibility or amounts if: The statement is false, misleading, or omits a
         material fact; and the person knows or should know the statement is false,
         misleading, or omits a material fact and the statement is made with a knowing
         disregard for the truth; and the statement is made on or after 12/14/99.”7

Employees from the six FOs we visited stated that their offices did not propose
administrative sanctions for DCN cases. The reasons cited included the following:

•     suspending benefits for 6 months is too harsh;

•     the additional time and work needed to develop a proposed sanction; and

•     the sanction process is too long and tedious and the office has to emphasize
      production.

In addition, we received feedback from 4 of the 10 regional administrative sanctions
coordinators. Of the four, only the coordinator in the Dallas Region was actively
imposing sanctions on DCN abusers.

The Dallas coordinator stated that a claims representative (CR) in the FO in Alexandria,
Louisiana used the administrative sanction process to reduce fraud and abuse related
to DCNs. The CR began submitting DCN cases to the Dallas regional coordinator in
May 2002. At the time of our contact, the CR had submitted 34 DCN cases for
sanctions and all were approved. The staff noticed a marked decrease in nonreceipt
claims for SSI check recipients at the FO. The Dallas coordinator stated that she was
publicizing these successes to generate more referrals.




7
    POMS, section GN 02604.405.



Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)                8
FO EMPLOYEES RECOMMEND DIRECT DEPOSIT
Direct deposit or Electronic Funds Transfer (EFT) can prevent individuals from abusing
the SSI Nonreceipt System. If a SSI payee is using EFT, FO employees and/or TSRs
can tell immediately if a recipient or representative payee has not received a SSI
payment. However, for EFTs in the United States:

         “Title II and Title XVI benefit recipients who indicate that payment by EFT would
         impose a hardship may request to be exempted from the EFT requirement. The
         recipient will determine what constitutes a hardship. These self-determinations
         of hardship will not be verified or documented in the file.”8

Therefore, SSA staff can only encourage individuals to use direct deposit. We identified
cases where individuals with multiple DCNs were told to open an account with a bank to
have direct deposit. In some cases, the individuals would then close the account and
again double negotiate checks. We determined that some DCN abusers were required
to pick up checks at their servicing FOs, although we found no policy to support this
procedure. Also, employees stated that they could not efficiently accommodate
individuals with multiple DCNs coming into the office at the beginning of every month to
pick up checks.

ANALYSIS OF DCN RECOVERY RATE

SSA does not monitor the status of overpayments related to DCNs to determine their
repayment status. As a test, we selected the 12 recipients from the 6 FOs we visited
who had 10 or more DCNs during the 1-year period ended March 31, 2002. These
12 recipients have a total of 125 DCNs. The detailed results are shown as Appendix D.
We found that only one DCN was fully recovered within 1 year following the
overpayment. The DCN recovery rate was:

•     One DCN was found to be fully repaid by February 2003.

•     Thirty-two (25.6 percent) of the DCNs were partially paid.

•     Ninety-two (73.6 percent) were awaiting collection. The 10 percent withholds for
      collection were being applied to earlier overpayments for the same individuals.

OFFICE OF INVESTIGATIONS DCN PROJECT
OI’s Batavia Office, New York Field Division, has in process an initiative to address the
significant increase in replacement checks received by SSI recipients since the
Robinson-Reyf court mandate. Twenty-seven SSA offices within the jurisdiction of the
Batavia Office in the State of New York were included in this project.


8
    POMS, section GN 02402.001.


Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)                9
On December 31, 2002, the Batavia Office received a computer-generated listing of
382 potential DCN fraud suspects, each of whom incurred at least 5 DCNs in the past
60 months. By January 17, 2003, OI completed personal interviews for the 22 worst
offenders and all of them provided sworn statements admitting to false claims. Some of
the interviews collaborated FO staff statements that TSCs were the weakest link in SSA
controls over the replacement check process. During January 21-22, 2003, OI briefed
the United States Attorney’s Office for the Western and Northern Districts of New York
about the investigation. Both agreed to a unified and coordinated prosecution in the two
Districts. OI reported in April 2003 that there were a total of 115 cases pending
prosecution. For the Eastern and Southern Districts, OI identified 424 DCNs with
overpayments totaling over $1.7 million. Of these, there were 170 cases with potential
for criminal prosecution based on a minimum overpayment amount of $4,000 per case.

Other OI Field Divisions are looking into the viability of DCN investigations. Several
factors must be taken into consideration, not the least of which is continuing support by
Federal or State/local prosecutors within affected jurisdictions. Other factors include the
amount of monetary losses, recipients’ or payees’ criminal records, availability of
investigative resources and competing workloads, and the suspects’ age, mental health
and financial resources.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)            10
                                            Conclusions and
                                         Recommendations
SSA revised its procedures to improve controls over the issuance of DCNs and the
recovery of related overpayments. If properly and consistently applied, these
procedures will reduce the occurrence of DCNs in the future and provide a means for
timely recovery of overpayments when they occur. However, the procedures do not
address the timely recovery of DCNs previously incurred with large overpayment
balances. Also, our discussions with field staff disclosed concerns about their capability
to address effectively the problem of individuals with multiple DCNs. Additional
guidance is needed to provide for the consistent use of referrals to OI and
administrative sanctions.

Our visits to FOs and discussions with regional staff also disclosed the lack of
deterrence to individuals who continue to request replacement checks and incur
multiple DCNs. Even for those individuals subject to the OI project in the State of
New York, the majority are not subject to prosecution because the amount of money
related to the DCNs was below the minimum needed to pursue prosecution. Except for
one FO in the Dallas Region, we also found no evidence that field staff were pursuing
administrative sanctions against individuals with DCNs. Finally, our visits identified a
need for training and enhanced systems support to assist field staff in identifying and
taking appropriate action when confronted by individuals with multiple DCNs. Training
is particularly critical given the significance of procedural changes this year.

Systems enhancements would reduce the time and increase the accuracy of DCN
processing actions required of the employee. Currently, manual actions are taken to
access and review each individual’s SSI record, identify patterns of DCNs and either
request a replacement check or request assistance from Treasury. When DCNs are
detected, the employee processes appeals notices and, when appropriate, establishes
overpayments for benefit offset recovery actions. We believe this process is labor
intensive and, as a result, subject to clerical error or oversight.

RECOMMENDATIONS

We recommend SSA:

1. Conduct training for both FO and TSC staff to address the issue of DCNs. The
   training should focus on changes in processing requests for replacement checks and
   increasing the withhold amount to recover DCN overpayments from subsequent
   checks.

2. Consider automation enhancements to the replacement check process to assist staff
   in identifying individuals with DCNs and processing appeals and overpayment
   recovery actions.


Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)           11
3. Develop and implement procedures to use administrative sanctions in an
   appropriate and consistent manner against individuals with multiple DCNs.

4. Continue encouraging recipients to use the direct deposit system as a means of
   preventing SSI payment errors.

5. Develop action plans to assist FOs with a high number of DCNs by improving front-
   end processing. Also ensure FOs refer individuals with multiple DCNs to OI for
   potential prosecution or, if declined, to regional offices for administrative sanctions.

AGENCY COMMENTS

SSA generally agreed with our recommendations and supports the need to deter and
prevent DCNs, especially when recipients claim high numbers of nonreceipts. The only
reservation expressed was to question the need for action plans to assist FOs with a
high number of DCNs. SSA believes current improvements are adequate and
additional actions for specific FOs are unnecessary.

OIG RESPONSE

We commend SSA for the actions taken to address the issue of DCNs. Also, SSA may
be correct in assuming planned corrective actions are sufficient to address concerns
over DCNs, including FOs with high numbers. We believe, however, that it is prudent to
recognize some FOs may have more severe problems with DCNs, requiring more of a
commitment to resolve than other FOs where the concern is less of an issue.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)             12
                                     Appendices




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                                                                       Appendix A

Statistical Analyses and Methodology
We extracted from the Supplemental Security Record database two files, for the
12-month periods ended March 31, 2001 and 2002. Both files identified nationwide
totals for double check negotiations (DCN) that were made during each period with the
related overpayment amount. We identified DCNs based on SSI disbursements where
both original and replacement checks were negotiated for the same payment period.

The records were sorted by the number of DCNs for each recipient with the related
overpayment amount. The number of DCNs and the dollar amount for the 2 years are
as follows.

•    Number of DCNs for 2001     99,353 Overpayment Amount            $ 45,032,402

•    Number of DCNs for 2002 127,262 Overpayment Amount                   59,703,356

        Totals                  226,615                               $104,735,758

For audit purposes, we focused on the most recent 12-month period. We identified
100 percent of the recipients obtaining multiple DCNs. (See Appendix B for a
nationwide frequency table.) The table identifies the frequency of DCN issued to the
same recipients and representative payees within a 1-year period.

We developed a methodology to visit FOs to review offices’ compliance with procedures
to control and recover DCNs. The 6 offices that were selected for visits were chosen
from 20 FOs with the highest volume of DCNs (nationwide) for the 1-year period ended
March 31, 2002. (See Appendix C for the 20 FOs.)

We selected the six offices based on geographic dispersion, as well as a high number
of DCNs. The table below presents the 6 selected FOs and their ranking within the
“Top 20” for the 12-month period.

                 Location                        Rank          Total DCNs

1.   Memphis (Downtown), Tennessee                 1              1,152
2.   Milwaukee (North), Wisconsin                  2              1,080
3.   Detroit (East), Michigan                      5                810
4.   St. Louis (Downtown), Missouri                6                753
5.   Los Angeles (Watts), California              10                709
6.   Rochester, New York                          15                649




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                                                                                                    Appendix B
                                                 FREQUENCY TABLE
                                         FOR DOUBLE CHECK NEGOTIATIONS
                                           (APRIL 1, 2001 – MARCH 31, 2002)



                                  Number of Recipients                                   Dollar Amount
  Number of
    DCN                              Representative                                      Representative
 Occurrences         Individual          Payee               Total          Individual       Payee            Total
     12                     2                 5                  7        $     11,647   $     26,121     $     37,768
     11                    14                16                 30              79,635         82,570          162,205
     10                    40                26                 66             209,693        123,980          333,673
      9                    57                48                105             252,749        200,123          452,872
      8                    98                76                174             384,364        297,228          681,592
      7                   175               159                334             619,702        548,694        1,168,396
      6                   292               263                555             849,460        760,464        1,609,924
      5                   526               550              1,076           1,260,828      1,339,892        2,600,720
      4                   972             1,010              1,982           1,883,385      1,978,410        3,861,795
      3                 2,023             2,023              4,046           2,869,915      2,951,954        5,821,869
      2                 5,714             5,668             11,382           5,298,125      5,517,048       10,815,173
      1                35,122           34,851              69,973          15,404,524     16,752,845       32,157,369
    Total              45,035           44,695              89,730        $ 29,124,027   $ 30,579,329     $ 59,703,356




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                                                                                      Appendix C

                Field Offices with the Highest Number
                     of Double Check Negotiations
                   (April 1, 2001 - March 31, 2002)

               Rank                        Location                             Total DCNs

                 1       Memphis (Downtown), Tennessee                            1,152
                 2       Milwaukee (North), Wisconsin                             1,080
                 3       Anacostia, District of Columbia                            987
                 4       Toledo (Downtown), Ohio                                    948
                 5       Detroit (East), Michigan                                   810
                 6       St. Louis (Downtown), Missouri                             753
                 7       Denver, Colorado                                           751
                 8       San Bernardino, California                                 747
                 9       Phoenix (Downtown), Arizona                                710
                10       Los Angeles (Watts), California                            709
                11       Detroit (Northwest), Michigan                              700
                12       Cleveland (Downtown), Ohio                                 695
                13       Columbus (Downtown), Ohio                                  659
                14       Cincinnati (Downtown), Ohio                                651
                15       Rochester, New York                                        649
                16       Milwaukee (Downtown), Wisconsin                            615
                17       St. Louis (Central West) Missouri                          612
                18       Tampa Bay (Downtown), Florida                              611
                19       Highland Park, Michigan                                    602
                20       St. Louis (Southside), Missouri                            601




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                                                                                                  Appendix D

   Overpayment Recoveries for Cases with 10 or More
   Double Check Negotiations at 6 Field Offices Visited
           (April 1, 2000 to March 31, 2002)
                Number of            Number of              Total DCN                Total
   State        Recipients             DCNs                  Amount             Overpayments            Collections
Tennessee           1                   10                   $4,788                $ 6,269              $1,404.90
Tennessee           1                   10                    4,802                  9,426                 710.60
Tennessee           1                   10                    4,802                  7,228                 492.60
Tennessee           1                   10                    4,801                  5,689                      0
Missouri            1                   12                    5,822                  8,027                 438.80
Missouri            1                   10                    4,814                  9,504                 275.30
California          1                   10                    7,159                  2,242                 302.10
California          1                   10                    6,476                 14,891                 771.10
Michigan            1                   12                    3,626                  6,725                 819.60
Michigan            1                   10                    4,788                  6,953                 438.10
New York            1                   10                    5,597                 15,590                 254.90
Wisconsin           1                   11*                   5,431                  7,356                 165.60
TOTALS             12                   125                 $62,906               $99,900              $6,073.60

Note: Total overpayments and collections for all causes identified on the selected records were determined as of
      February 21, 2003. The system does not track activity by overpayment events nor relate collections to specific
      events.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                                                                       Appendix E
                               SOCIAL SECURITY ADMINISTRATION
                                         CHICAGO, IL
                              REVIEW OF SSI NON-RECEIPT SYSTEM
                           SUPPLEMENTAL SECURITY INCOME BENEFITS
                            REVIEW PERIOD: APRIL 2000 – MARCH 2002
                                      CIN: A-05-03-13010


                     QUESTIONNAIRE FOR INTERVIEWS
                 CONDUCTED AT SELECTED SSA FIELD OFFICES


PURPOSE:

The purpose of this questionnaire is to review field office (FO) procedures to control and
recover overpayments due to double check negotiations (DCNs) under the title XVI
program. The ________________________was selected for review because it was
one of twenty offices with the highest volume of DCNs.

PERSONS TO BE INTERVIEWED:

Two Service Representatives with SSI program experience and conclude with either a
SSI supervisor or FO manager to answer any discrepancies between the two
interviews.

TIMEFRAME AND DISTRIBUTION OF QUESTIONNAIRE:

The interviews should be conducted in one day. Once responses to the questions have
been written up, please e-mail or fax the completed documents to Elaine Harris, Senior
Auditor, Chicago Field Office, as follows:

Elaine.P.Harris@SSA.Gov or
(312) 353-8035 (FAX No.)

INTERVIEWEE AND INTERVIEWER INFORMATION:
Date of Interview:____________________________________________
Name of Interviewee:_________________________________________
Interviewee Title:_____________________________________________
Years of SSI Experience:_______________________________________
Name/Location of FO (City and State):_____________________________
Telephone No. of Interviewee:____________________________________

Name(s) of OIG Interviewer(s):______________________________________
Name/Location of OIG FO (City and State):_____________________________
Office Telephone where Auditor(s) can be reached:_______________________



Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)          E-1
QUESTIONS AND RESPONSES

1. (a) Please provide an overview of how replacement checks are processed for SSI
   recipients.

Response:



   (b) Does the FO process the bulk of requests for replacement checks vs. persons
   calling SSA’s 800 number?

Response:



   (c) Please provide an estimated percentage of persons walking in
   FO__________ and persons calling SSA’s 800 number_________ for replacement
   checks?


   (d) Based on your experience with the Department of the Treasury (DT) do you feel
   that some DT personnel will issue replacement checks to individuals who have a
   history of DCNs and others will not, once a “C stop” has been transmitted? Please
   explain:

Response:



2. How are overpayments due to DCNs handled?

Response:



3. Do you feel that current procedures are adequate for reducing overpayments?

Response:




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)        E-2
QUESTIONS AND RESPONSES (CONT’D)

4. Do you believe overpayments related to DCNs should be recovered
   quicker than overpayments caused by other reasons? Please state why.

Response:



5. (a) Please provide an estimated percentage of SSI overpayments caused by DCNs
   for a typical month? Please provide an estimated percentage of total SSI
   overpayments incurred during a typical month.

Response:



    (b) Do you believe these overpayments could be avoided? Please state
        how.

Response:



6. What are the most significant factors in the nonreceipt process that allow
   recipients to consistently double negotiate checks? Please explain.

Response:




Note: If the interviewee has indicated more than one factor to the above
question, please have him/her prioritize the factors according to the most
significant.

Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)   E-3
QUESTIONS AND RESPONSES (CONT’D)

7. (a) Does your office have a method to identify recipients who consistently
   negotiate double checks and prevent them from continuing to receive DCNs?

Response:



   (b) Do you have any suggestions to address the problem of recipients/rep payees
       with multiple DCNs?

Response:



8. How does your office penalize or otherwise address the problem of chronic abusers
   of the non-receipt system? For example:

   (a) Does your office require chronic DCN abusers to pick up their checks at the FO?

Response:



   (b) Does your office use administrative sanctions to penalize chronic DCN abusers?
       Please explain.

Response:



   (c) What other method does your office use to address the problem of chronic DCN
       abusers? Please explain.

Response:




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)        E-4
QUESTIONS AND RESPONSES (CONT’D)

9. Why is your office one of those with the largest number of DCNs issued
   in the nation?

Response:



10. The interviewer should provide the interviewee with a copy of a SSID
    record (previously obtained from the Chicago Audit Office) and ask the
    following questions:

a) How would you handle the person whose name appears on this SSID
   record if he/she were to come in this office for another replacement check?

Response:



b) What, if anything, will be done to stop the recipient from continuing to receive
   replacement checks?

Response:



11. Do you have any recommendations for controlling the number of overpayments
    caused by DCNs?

Response:




Note: If the interviewee has noted more than one recommendation, have him/her
prioritize the recommendations in their order of significance.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)         E-5
                                                                        Appendix F

Agency Comments




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                                              SOCIAL SECURITY
MEMORANDUM                                                                                  32249-24-960


Date:      September 10, 2003                                                               Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Controls Over Supplemental Security Income
           Replacement Checks” (A-05-03-13010)--INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Janet Carbonara at extension 53568.

           Attachment:
           SSA Response




           Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)                      F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CONTROLS OVER SUPPLEMENTAL SECURITY INCOME
REPLACEMENT CHECKS” A-05-03-13010

We appreciate the opportunity to comment on this draft report. The Agency strongly
supports deterring and preventing fraudulent requests for Supplemental Security Income
(SSI) replacement checks, as duplicate check negotiations (DCN) are a concern. We are
pleased to report that significant automation enhancements have been implemented to
detect and prevent the issuance of DCNs under suspicious conditions. Also, additional
training to increase awareness of DCNs was provided with the implementation of these
system enhancements.

We encourage the Office of Inspector General (OIG) to expand their investigative and
criminal pursuits of recipients who claim a high number of non-receipts. We believe that
riminal prosecution of these cases would be a deterrent and decrease the number of
fraudulent requests for replacement checks.

OIG needs to be aware that the Agency would incur unbudgeted administrative costs to
implement these recommendations. The magnitude of these costs would depend on
Agency decisions made during implementation planning. The resulting administrative
impact would offset a portion of the estimated program savings. Without additional
funding to cover these costs, the Agency would have to defer other work.

Below are our specific comments to the recommendations and technical comments to
enhance the report.

Recommendation 1

Conduct training for both Field Office (FO) and Teleservice Center (TSC) staff to
address the issue of DCNs. The training should focus on changes in processing requests
for replacement checks and increasing the withhold amount to recover DCN
overpayments from subsequent checks.

Comment

We agree that refresher training would be beneficial to FO and TSC employees. Several
Regional Offices (RO) have already identified and provided training on a local level.
Also, refresher training instructions were included with the May 2003 release of the
Title XVI modernized screens.

In October 2003, we plan to begin developing the content of a national non-receipt
refresher training package. Tentative plans call for the training to be scheduled by the
end of the second quarter in fiscal year 2004.

In regard to the withholding amount to recover DCN overpayments, current Program
Operations Manual System (POMS) (SI 02220.016.A.2) states that recovery should be
made without limitation (i.e., not subject to the normal 10 percent adjustment limitation)




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)                F-2
when the FO makes a determination that similar fault, misrepresentation or concealment
of material information was committed by the person. These instructions specifically
give DCN situations as an example of when recovery without limitation may be
appropriate.

Recommendation 2

Consider automation enhancements to the replacement check process to assist staff in
identifying individuals with DCNs and processing appeals and overpayment recovery
actions.

Comment

We agree and recognize the importance of preventing DCNs while simultaneously
complying with the January 1997 Robinson-Reyf Federal settlement agreement.

In May 2003, SSA implemented new user friendly front-end non-receipt processing
screens in the Title XVI modernized system for use by FO and TSC employees. Among
the enhancements implemented is an alert derived from the payment history records
advising the FO employee that a possible DCN situation exists on the SSI record and that
further development is required before a replacement check can be issued.

In addition, a second phase of non-receipt enhancements is currently being considered.
The Office of Systems is presently working with the Department of the Treasury’s
(Treasury) Financial Management Service regarding the possibility of providing DCN
information online (results of forgery determinations, appeals, denials, etc.). If the
Agency could be notified electronically when Treasury has rendered an unfavorable
forgery determination on past DCNs, the information could be added to the Supplemental
Security Record to assist in identifying patterns of non-receipt and include a diary of due
process events for Treasury appeals. This process would assist Agency personnel in
recognizing true abusers of the system and would allow preventative measures to be
taken.

Recommendation 3

Develop and implement procedures to use administrative sanctions in an appropriate and
consistent manner against individuals with multiple DCNs.

Comment

We agree that administrative sanctions should be used in an appropriate and consistent
manner. In October 2002, we released an emergency message reiterating the policy and
procedures for imposing sanctions and encouraged managers to conduct refresher training
and promote the use of sanctions. The Dallas Region has reported fewer DCNs, as the
result of administrative sanctions.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)                 F-3
There are POMS instructions in place (GN 02604.410.A5) that provide examples of
specific types of actions that may cause a sanction, one of which is a DCN situation. As
the report stated, FO employees view the sanction process as “too long and tedious.” We
are currently in the process of reviewing the sanction process to ensure it is implemented
consistently throughout the nation.

Also in October 2002, we submitted system requirements to OIG to build an
Administrative Sanctions flag into the electronic SSA-8551, OIG Referral of Potential
Violation process. OIG concurred and tentatively has the change planned for
October 2003.

Recommendation 4

Continue encouraging recipients to use the direct deposit system as a means of preventing
SSI payment errors.

Comment

We agree, although it is important to clarify that DCNs are not “payment errors.” If the
person alleging non-receipt is not a known abuser of the non-receipt reporting system,
SSA must ask Treasury to replace the missing check under the provisions of the
Robinson-Reyf Federal settlement agreement. If it later turns out to be a situation of
fraud, then the resulting overpayment was unavoidable, and a payment error.

For many years, SSA has participated in a direct deposit campaign in association with the
National Automated Clearing House Association to encourage recipients to enroll in
direct deposit. This campaign involves check inserts, advertisement materials for the
banks to display and a nationally televised public service announcement.

At this time, SSA is supporting an in-depth study sponsored by Treasury to determine
why Social Security and SSI check recipients are reluctant to sign up for direct deposit.
We anticipate that the findings and recommendations from the study will be used in
future electronic payment marketing efforts.

Recommendation 5

Develop action plans to assist FOs with a high number of DCNs by improving front-end
processing. Also, ensure FOs refer individuals with multiple DCNs to the Office of
Investigations (OI) for potential prosecution or, if declined, to RO for administrative
sanctions.

Comment

We agree in part. We disagree with the development of action plans to assist FOs with a
high number of DCNs since improvements are already underway due to enhancements in
the Modernized Supplemental Security Income Claims System.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)                F-4
As for ensuring the FOs refer individual cases with multiple DCNs to OI, we agree.
However, it should be noted that although a case may show multiple DCNs have been
issued, this may not be an indicator that the case meets the definition of a “true” DCN.
To help address OIG’s concern, we will include this issue in the refresher training
described in recommendation 1.

Technical Comments

Executive Summary, Background, second sentence – The words “court decision” should
be removed and replaced with “settlement agreement.” The Robinson-Reyf litigation, as
the Agency understands, resulted in a settlement agreement. If this is not the case, we
recommend that OIG specify the court decision and give the citation.

Executive Summary, Results of Review, second sentence – The 12-month period ended,
should be 12-month period “ending.” This should be changed throughout the report.

Background, Page 1, second paragraph – We agree that the procedure was challenged in
1994 (see Robinson vs. Sullivan, 1994 WL 750634 (S.D.N.Y.) (October 6, 1994)) and
according to POMS GN 02406.002, a settlement agreement was entered into in
January 1997. We feel that this information needs to be clarified.

Background, Page 1, fourth paragraph, fourth line – Add the word “final” between “a”
and “denial.” This is because an initial finding of no forgery by Treasury can be
followed by an appeal for another determination.

Scope and Methodology, Page 2, fourth bullet - This refers to recommendations stated in
the memorandum from the Dallas RO. We suggest that this memorandum be included as
an attachment, as not all of the readers may be aware of the     recommendations.

Results of Review, Page 4, second paragraph – Delete “court decision” and replace with
“settlement agreement.”

Results of Review, Pages 4 and 5 - The table contains inflated data because the totals
reflect the incidence of DCNs but not necessarily a true DCN, where the recipient
admitted to or was found to have signed both checks. Two checks cashed in the same
month is not a true DCN if one or both checks were cashed over a forged endorsement.
This is true for all of the data shown in this report.

Results of Review, Page 6, second paragraph – This paragraph seems to be misleading
and we believe that it should be revised to reference the statutory and regulatory
provisions that address the 10 percent limitation of recoupment rate for overpayment
first, which takes legal precedent over the POMS. Section 1631(b)(1) of the Social
Security Act, as amended by section 2612 of Pub. L. No. 98-369 (which was enacted
July 18, 1994, and became effective October 1, 1984), defines the Commissioner’s
authority for recovering funds when an individual receives more than the correct amount




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)              F-5
of benefits. While section 1631(b)(1)(B) provides that the rate of adjustment of payment
to recover SSI overpayments will be the lesser of the individual’s entire monthly benefit
or 10 percent of the individual’s total income for that month, it also makes clear that this
10 percent limitation does not apply if fraud, willful misrepresentation or concealment of
material information was involved in connection with the overpayment by the individual.
The Agency’s rules which implement section 2612 can be found at 20 C.F.R. 416.571.
These regulations became effective August 17, 1990 (55 Fed. Reg. 33667). The
paragraph as written might be read to imply that the Agency could not impose a rate of
recovery of up to 100 percent when overpayments were received under the circumstances
mentioned until 2002. Also, it should be noted that SSA revised POMS section SI
02220.016 in May 2003.

Appendix A, Page E-1 – This appendix page number is E-1, it should be A-1.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)                  F-6
                                                                       Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Bill Fernandez, Director, Western Audit Division, (510) 970-1739

   Teresa S. Williams, Deputy Director, (312) 353-0331

Acknowledgments
In addition to those named above:

   Elaine P. Harris, Senior Auditor

   Anthony Lesniak, Auditor

   Brennan Kraje, Statistician

   Charles Zaepfel, Computer Specialist

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-05-03-13010.




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board




Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010)
                   Overview of the Office of the Inspector General

                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
